APPENDIX

1a

APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 18-1701
STEVEN DOTSON,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:14-cv-1648 — William T. Lawrence, Judge.
ARGUED OCTOBER 3, 2019 —
DECIDED FEBRUARY 3, 2020
Before WOOD, Chief Judge, and BARRETT and
SCUDDER, Circuit Judges.
SCUDDER, Circuit Judge.
The Presentence
Investigation Report on Steven Dotson listed six prior
felony convictions, three of which the Probation Oﬃce
identified as qualifying him for the enhanced
mandatory minimum sentence of 15 years’
imprisonment under the Armed Career Criminal Act.
The PSR was silent on whether any of Dotson’s other
three convictions so qualified, and nobody raised the
question at sentencing. The district court agreed with

2a
the Probation Office and sentenced Dotson as a career
oﬀender to 188 months (15 years and 8 months).
In recent years, federal courts have seen a floodtide
of litigation over what qualifies as an ACCA predicate.
Dotson, too, has watched these developments, and he
reacted by pursuing post-conviction relief under 28
U.S.C. § 2255. The district court denied relief,
determining that Dotson has four qualifying ACCA
predicates—the three originally designated as such in
the PSR and one additional for burglary under Indiana
law. Since the district court’s decision, the law has
continued to evolve and has since knocked out one of
the three predicates the Probation Oﬃce originally
determined qualified Dotson as an armed career
criminal. The question presented is whether the
government can save the enhanced sentence by
substituting another of Dotson’s convictions—one
listed in the PSR as part of Dotson’s criminal history
but not designated as or found by the district court to
be an ACCA predicate at sentencing.
In the circumstances before us, the answer is yes,
owing not only to the substituted conviction being
included in the indictment and later the PSR, but also
to Dotson himself recognizing in legal filings and
apparently believing (although mistakenly) that his
Indiana burglary conviction had served as an ACCA
predicate at his original sentencing. So, while we
aﬃrm, our decision is narrow and limited. The record
leaves us no doubt Dotson believed his Indiana
burglary conviction could serve to support and
preserve his enhanced sentence.

3a
I
In March 2011, a grand jury indicted Dotson for
possessing a firearm following a prior felony
conviction, a violation of 18 U.S.C. § 922(g). The
indictment listed six prior felony convictions and
likewise alleged that Dotson qualified for the
minimum sentence Congress mandated in the Armed
Career Criminal Act. See 18 U.S.C. § 924(e) (requiring
a 15-year minimum sentence for anyone who violates
§ 922(g) and has three prior convictions for “a violent
felony or a serious drug oﬀense”).
Following Dotson’s conviction at a bench trial, the
case proceeded to sentencing. The PSR recommended
finding that Dotson qualified as an armed career
criminal on the basis of these three convictions:
1. Armed Robbery (Indiana 1992)
2. Dealing in Cocaine (Indiana 1993)
3. Attempted Robbery (Indiana 2007)
A separate portion of the PSR recounted Dotson’s
full criminal history by listing these same three
felonies and the three others contained in the
indictment:
4. Burglary (Indiana 1993)
5. Possession of Marijuana (Indiana 2000)
6. Theft and Receipt
(Indiana 2001)

of

Stolen

Property

In the end, the PSR came to a recommended
guidelines range of 235 to 293 months—driven largely
by Dotson qualifying as an armed career criminal. See
U.S.S.G. § 4B1.4.

4a
At sentencing neither party objected to the PSR’s
account of Dotson’s criminal history or determination
that he qualified as an armed career criminal for both
statutory and guidelines purposes. Following its
application of the factors in 18 U.S.C. § 3553(a) and
mindful of the 15-year mandatory minimum Congress
prescribed in ACCA, the district court sentenced
Dotson to 188 months. We aﬃrmed on direct review.
See United States v. Dotson, 712 F.3d 369 (7th Cir.
2013).
In October 2014, Dotson invoked 28 U.S.C. § 2255
and sought a reduced sentence. Pointing to the
Supreme Court’s decision in Descamps v. United
States, 570 U.S. 254 (2013), he argued that his 1993
Indiana burglary conviction (#4 in our list above) no
longer qualified as an ACCA predicate. That position
reflected a misunderstanding on Dotson’s part, for the
district court at sentencing never considered or found
that the Indiana burglary qualified as a violent felony.
In a supplemental filing, Dotson also questioned
whether his Indiana dealing in cocaine oﬀense (#2)
was an ACCA predicate.
The district court responded to Dotson’s motion by
appointing counsel. Dotson’s counsel then repeated
the same mistake in an amended § 2255 motion,
arguing that neither the 1993 Indiana burglary
conviction (#4) nor the 2007 Indiana attempted
robbery conviction (#3) qualified as violent felony
predicates. Nobody caught that the 1993 Indiana
burglary conviction (#4) was not part of the basis on
which the sentencing judge found Dotson to be an
armed career criminal.

5a
For its part, the district court likewise committed
the same mistake, denying Dotson’s § 2255 motion
because, even if the 1993 Indiana dealing in cocaine
conviction (#2) somehow did not constitute a serious
drug oﬀense within the meaning of § 924(e), his 1992
Indiana armed robbery (#1), 2007 Indiana attempted
robbery (#3), and 1993 Indiana burglary (#4)
convictions remained ACCA predicates. Put another
way, in ruling on Dotson’s § 2255 motion, the district
court started from the express (but mistaken) premise
that it previously “found” at sentencing that Dotson
“had three or more prior convictions that qualified as
‘violent felonies’ [or serious drug oﬀenses],” including
oﬀenses #1 (armed robbery), #2 (dealing in cocaine), #3
(attempted robbery), and #4 (burglary). Nobody
caught the mistake.
After the district court’s denial of Dotson’s § 2255
motion and request for a certificate of appealability,
this court held that an Indiana conviction for
attempted robbery is not a “crime of violence” within
the meaning of ACCA. See United States v. D.D.B., 903
F.3d 684, 692–93 (7th Cir. 2018). Dotson then sought,
and we granted, a certificate of appealability in light
of D.D.B.
II
What happened during Dotson’s present appeal
frames the issue now before us. Our decision in D.D.B.
meant that Dotson’s 2007 Indiana attempted robbery
conviction (#3) no longer qualifies as an ACCA
predicate. From there, however, the government
points to our decision in United States v. Perry, 862
F.3d 620 (7th Cir. 2017), where we held that Indiana
burglary qualifies as a violent felony under ACCA, and

6a
urges us to rely upon—or, more accurately, to
substitute—Dotson’s
1993
Indiana
burglary
conviction (#4) to sustain his sentence as an armed
career criminal. The government’s requests and
reasoning are straightforward: with the Indiana
attempted robbery conviction (#3) out because of
D.D.B. but the burglary conviction (#4) remaining a
violent felony, Dotson still has three qualifying
predicates (#1, #2, and #4) and remains an armed
career criminal.
Not before now have we considered whether the
government can substitute ACCA predicates after
sentencing to save an enhanced sentence. We came the
closest to the issue in Light v. Caraway, 761 F.3d 809
(7th Cir. 2014), and take some direction from our
approach there.
Augustus Light had at least four adult felony
convictions, three of which the PSR identified as
ACCA predicates. See id. at 811. At sentencing, and
without expressly stating which convictions qualified
as ACCA predicates, the district court followed the
Probation Oﬃce’s recommendation and sentenced
Light as a career oﬀender. The Supreme Court then
decided several cases addressing what did and did not
qualify as ACCA predicates. The Court’s decision in
Begay v. United States, 553 U.S. 137 (2008), had the
eﬀect of showing that Light’s prior conviction for
criminal vehicular operation under Minnesota law
was not a qualifying violent felony under ACCA. But
three years later came Sykes v. United States, 564 U.S.
1 (2011), which had the opposite eﬀect for Light. Sykes
made clear that Light’s conviction under Minnesota
law for fleeing in a car from a police oﬃcer—an oﬀense
that was not an ACCA predicate under the law in place

7a
at the time of Light’s sentencing—did constitute a
violent felony within the meaning of § 924(e). Light,
761 F.3d at 814.
The “net change” of these legal developments, we
determined, was “zero.” Id. This meant Light
remained an armed career criminal: “Through
intervening changes in the law, one of his prior
predicate oﬀenses for the ACCA enhancement no
longer qualifies, but one that was not previously a
qualifying predicate oﬀense has become eligible.” Id.
More to it, we failed to “see why Light is entitled to a
one-way ratchet, subject only to changes in law that
benefit him but immune from changes in law that are
not helpful.” Id. at 817. Nor were we persuaded by
Light’s contention of unfair notice—that the
substituted oﬀense (the fleeing-in-a-vehicle oﬀense)
was not an ACCA predicate at the time of sentencing.
Given “the numerous recent cases elaborating on the
scope of the ACCA’s residual clause,” we explained,
Light could not claim any “undue surprise” that the
changes in law could work in both directions to leave
his sentence undisturbed. Id.
At the very least, Light counsels that our analysis
here should ask whether fundamental unfairness
arising from a lack of notice would befall Dotson by
allowing his 1993 Indiana burglary conviction (#4) to
sustain his sentence as an armed career criminal. On
the record before us, we cannot answer the question in
Dotson’s favor.
First, recall that the indictment listed the burglary
conviction among other prior felonies as part of
charging a violation of § 922(g) and § 924(e)—the
latter being an express reference to ACCA. The

8a
indictment, in short, informed Dotson the government
may rely on his burglary conviction (#4) to show he had
three qualifying ACCA predicates and thus would face
an enhanced sentence upon a conviction.
Second, and more importantly, Dotson himself
submitted at least four filings reflecting the belief,
albeit a mistaken one, that the district court had
counted the 1993 burglary conviction (#4) as a
qualifying ACCA predicate at the original sentencing.
He then saw his appointed counsel make the same
mistake.
The punchline, then, is that these circumstances are
far afield from a scenario where a defendant may be
able to make a credible showing of undue surprise
from allowing the substitution of a particular felony
conviction not relied upon at sentencing to save an
ACCA sentence otherwise called into question by
subsequent developments in the law. Dotson more
than knew of this possibility: he and his counsel
represented it as reality in several legal filings in the
course of these § 2255 proceedings. In these
circumstances, we see no unfairness in leaving intact
Dotson’s sentence as an armed career criminal.
We prefer this narrower reasoning to the broader
strokes the Eleventh Circuit painted with in deciding
the same question in Tribue v. United States, 929 F.3d
1326 (11th Cir. 2019). The court there held that, in
opposing a § 2255 motion, the government may rely on
a conviction to serve as an ACCA predicate even if the
conviction was not among those listed in the PSR as,
or determined at sentencing to be, a predicate. See id.
at 1332 (observing that the defendant “raised no
objection to his ACCA enhancement” and emphasizing

9a
that “the government did not waive reliance on other
convictions in the [PSR] as ACCA predicates simply by
not objecting to the [PSR] on the grounds that Tribue
had more qualifying convictions than the three that
the probation oﬃcer had identified as supporting the
ACCA enhancement”). The Tenth Circuit seems to
have reached a similar conclusion. See United States
v. Garcia, 877 F.3d 944, 956 (10th Cir. 2017) (allowing,
without express consideration of the issue, the postsentencing substitution of a prior conviction not
designated in the PSR as a violent felony predicate to
save an ACCA sentence), abrog’d on other grounds by
United States v. Ash, 917 F.3d 1238 (10th Cir. 2019).
By contrast, the Fourth Circuit has held that the
government could not support an ACCA enhancement
with a conviction listed in the PSR but not previously
designated at sentencing as a predicate. See United
States v. Hodge, 902 F.3d 420, 427 (4th Cir. 2018). The
court rooted its holding in the unfairness of the
defendant having no notice—no reason at
sentencing—to believe the court or government may
react to a change in the law favorable to the defendant
by relying on another of his prior convictions to
preserve the ACCA sentence. The court put its holding
this way: “when the Government or the sentencing
court chooses to specify which of the convictions listed
in the PSR it is using to support an ACCA
enhancement, it thereby narrows the defendant’s
notice of potential ACCA predicates from all
convictions listed in the PSR to those convictions
specifically identified as such.” Id. at 428.
While not siding with the Fourth Circuit’s broader
holding, we agree with its concerns about notice to
defendants. Fair notice underpins due process

10a
precisely because it prevents surprise and aﬀords
opportunities to respond. Those principles are not
oﬀended here: Dotson himself believed and
represented in multiple legal submissions that the
district court counted his 1993 Indiana burglary
conviction (#4) as an ACCA predicate at his original
sentencing. While his view was mistaken, allowing
the burglary conviction to sustain his sentence does
not in our view oﬀend principles of fair notice on these
unusual facts.
So, too, do we worry about the consequences of a
holding that, as a practical matter, risks producing
expansive litigation at sentencing over whether each
and every prior felony in a defendant’s criminal
history constitutes a qualifying ACCA predicate. The
law in this area, at the risk of great understatement,
is dizzyingly complex. The last outcome we want to
risk is sentencing hearings turning into full-blown,
prolonged, and extraordinarily diﬃcult exercises over
questions where the answers may never matter.
Judicial resources warrant better investment.
For these reasons, we AFFIRM.

11a

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
STEVEN DOTSON,
Petitioner,

)
)
) Case No. 1:14-cvvs.
) 1648-WTL-MPB
)
UNITED STATES OF AMERICA. )
Entry Denying Motion for Relief Pursuant to
28 U.S.C. § 2255 and Denying Certificate
of Appealability
For the reasons explained in this Entry, the
amended motion of Steven Dotson (“Mr. Dotson”) for
relief pursuant to 28 U.S.C. § 2255 must be denied
and the action dismissed with prejudice. In addition,
the Court finds that a certificate of appealability
should not issue.
I. The § 2255 Motion
Background
Mr. Dotson was convicted of being a felon in
possession of a firearm under 18 U.S.C. § 922(g)(1), on
January 10, 2012, after a bench trial in the United
States District Court for the Southern District of
Indiana. United States v. Dotson, 1:11-cr-056-WTLDML-1, Crim. Case, Dkt. No. 43. He was sentenced to
a term of 188 months to be followed by a 5 year term
of supervised release. The 188 month sentence was

12a
based on the Court’s finding that Mr. Dotson was an
armed career criminal under 18 U.S.C. § 924(e)
(Armed Career Criminal Act) (“ACCA”). Judgment
was entered August 20, 2012. Crim Case, Dkt. No. 56.
The Seventh Circuit Court of Appeals affirmed the
conviction on April 4, 2013. United States v. Dotson,
712 F.3d 369 (7th Cir. 2013). Mr. Dotson’s petition for
writ of certiorari was denied by the United States
Supreme Court on October 7, 2013. Dotson v. United
States, 134 S.Ct. 238 (2013).
The Court found Mr. Dotson to be an armed career
criminal after finding that he had three or more prior
convictions that qualified as “violent felonies.” Those
Indiana convictions included burglary, armed robbery,
dealing in cocaine, and attempted robbery. In his
amended motion to vacate under § 2255, Mr. Dotson
claims that two of his predicate offenses, burglary and
attempted robbery, are not violent felonies under the
ACCA. Dkt. No. 39; Dkt. No. 45. The United States
opposes his amended § 2255 motion.
As noted, throughout this litigation, Mr. Dotson has
not challenged two of his four predicate offenses:
armed robbery and dealing in cocaine. In Mr. Dotson’s
reply, Dkt. No. 54, for the first time since this action
was filed in 2014, he argues that his dealing in cocaine
conviction is not a serious drug felony conviction.
Even if this argument had not been waived by being
raised only in the reply, the Court need not consider it
on the merits because Mr. Dotson has three other
predicate violent felonies: burglary, armed robbery,
and attempted robbery.

13a
Discussion
The ACCA “imposes a 15-year minimum sentence
on defendants convicted of illegally possessing a
firearm,…who also have at least three prior
convictions for a ‘violent felony’ or a ‘serious drug
offense.’” United States v. Foster, 877 F.3d 343, 344
(7th Cir. 2017). “ACCA defines ‘violent felony’ in
relevant part as any felony that ‘is burglary.’ 18 U.S.C.
§ 924(e)(2)(B)(ii).” Id. “The term ‘burglary’ in
§ 924(e)(2)(B)(ii), however, refers only to crimes that
fit within ‘generic’ burglary, which the Supreme Court
has defined as ‘an unlawful or unprivileged entry into,
or remaining in, a building or other structure, with
intent to commit a crime.’” Id. (quoting Taylor v.
United States, 495 U.S. 575, 598 (1990)).
“Determining whether burglary under a given state’s
law is a violent felony presents a categorical question
that focuses exclusively on the state crime’s elements
and not on the facts underlying the conviction.” Id.
(citing Mathis v. United States, 136 S.Ct. 2243, 2248
(2016)). “The state crime’s elements must be the same
as, or narrower than, the elements of generic burglary,
so that the crime covers no more conduct than the
generic offense.” Id.
The Seventh Circuit has determined that an
Indiana Class C burglary conviction is a valid
predicate offense under § 924(e)(2)(B)(ii). United
States v. Perry, 862 F.3d 620, 624 (7th Cir. 2017);
Foster, 877 F.3d at 344 (“We recently held in United
States v. Perry, 862 F.3d 620, 624 (7th Cir. 2017), that
Indiana Class C burglary is a violent felony because it
is at least as narrow as generic burglary.”). Mr.
Dotson’s burglary conviction in 1993, No. 49G06-9301-

14a
CF-007715, was a C felony. Perry controls the outcome
here.
In addition, with regard to the conviction of
attempted robbery, the Seventh Circuit has declared
that the “law of the circuit” is “[w]hen a substantive
offense would be a violent felony under § 924(e) and
similar statutes, an attempt to commit that offense
also is a violent felony.” Hill v. United States, 877 F.3d
717, 719 (7th Cir. 2017).
This holding was
foreshadowed in 2016 in United States v. Armour, 840
F.3d 904, 909, n. 3 (7th Cir. 2016) (noting that “[a]n
attempt conviction requires proof of intent to carry out
all elements of the crime, including, for violent
offenses, threats or use of violence.”), and in Judge
Hamilton’s concurring opinion in Morris v. United
States, 827 F.3d 696, 699 (7th Cir. 2016) (concluding
that “an attempt to commit a crime should be treated
as an attempt to carry out acts that satisfy each
element of the completed crime.”). Mr. Dotson’s prior
felony of attempted robbery qualifies as a valid
predicate offense.
Conclusion
Mr. Dotson is not entitled to relief pursuant to 28
U.S.C. § 2255.
The amended motion for relief
pursuant to § 2255 is therefore DENIED. Judgment
consistent with this Entry shall now issue.
This Entry shall also be entered on the docket
in the underlying criminal action, No. 1:11-cr00056-WTL-DML-1.
II.

Certificate of Appealability

Pursuant to Federal Rule of Appellate Procedure
22(b), Rule 11(a) of the Rules Governing § 2255
Proceedings, and 28 U.S.C. § 2253(c), the Court finds

15a
that Mr. Dotson has failed to show that “reasonable
jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). The Court
therefore DENIES a certificate of appealability.
IT IS SO ORDERED.
/s/ William T. Lawrence
Date: 3/9/18

Hon. William T. Lawrence, Judge
United States District Court
Southern District of Indiana

Distribution:
Electronically registered counsel
Steven Dotson, #09940-028
FCI Terre Haute
P. O. Box 33
Terre Haute, IN 47808

16a

APPENDIX C
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 7, 2020
Before
DIANE P. WOOD, Chief Judge
AMY C. BARRETT, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 18-1701
STEVE DOTSON,
Appeal from the United
Petitioner-Appellant, States District Court for
v.
the Southern District of
Indiana, Indianapolis
Division.
UNITED STATES OF
No. 1:14-cv-1648
AMERICA,
Respondent-Appellee.
William T. Lawrence,
Judge.
ORDER
Petitioner-appellant filed a petition for rehearing
and rehearing en banc on March 19, 2020. No judge in
regular active service has requested a vote on the
petition for rehearing en banc, and all members of the
original panel have voted to deny panel rehearing.
The petition for rehearing and rehearing en banc is
therefore DENIED.

17a

APPENDIX D

CONSTITUTION OF THE UNITED STATES
Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.

18a

APPENDIX E

18 U.S.C.A. § 922. Unlawful acts
***
(g) It shall be unlawful for any person—
(1) who has been convicted in any court of, a
crime punishable by imprisonment for a term
exceeding one year;
(2) who is a fugitive from justice;
(3) who is an unlawful user of or addicted to any
controlled substance (as defined in section 102 of
the Controlled Substances Act (21 U.S.C. 802));
(4) who has been adjudicated as a mental
defective or who has been committed to a mental
institution;
(5) who, being an alien—
(A) is illegally or unlawfully in the United
States; or
(B) except as provided in subsection (y)(2),
has been admitted to the United States
under a nonimmigrant visa (as that term is
defined in section 101(a)(26) of the
Immigration and Nationality Act (8 U.S.C.
1101(a)(26)));
(6) who has been discharged from the Armed
Forces under dishonorable conditions;
(7) who, having been a citizen of the United
States, has renounced his citizenship;

19a
(8) who is subject to a court order that—
(A) was issued after a hearing of which such
person received actual notice, and at which
such person had an opportunity to
participate;
(B) restrains such person from harassing,
stalking, or threatening an intimate partner
of such person or child of such intimate
partner or person, or engaging in other
conduct that would place an intimate
partner in reasonable fear of bodily injury to
the partner or child; and
(C)(i) includes a finding that such person
represents a credible threat to the
physical safety of such intimate partner
or child; or
(ii) by its terms explicitly prohibits the
use, attempted use, or threatened use of
physical force against such intimate
partner or child that would reasonably
be expected to cause bodily injury; or
(9) who has been convicted in any court of a
misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign
commerce, or possess in or affecting
commerce, any firearm or ammunition; or to
receive any firearm or ammunition which has
been shipped or transported in interstate or
foreign commerce.
***

20a
18 U.S.C.A. § 924. Unlawful acts
***
(a)(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), (j), or (o) of section 922 shall be
fined as provided in this title, imprisoned not
more than 10 years, or both.
***
(e)(1) In the case of a person who violates section
922(g) of this title and has three previous
convictions by any court referred to in section
922(g)(1) of this title for a violent felony or a
serious drug offense, or both, committed on
occasions different from one another, such person
shall be fined under this title and imprisoned not
less than fifteen years, and, notwithstanding any
other provision of law, the court shall not suspend
the sentence of, or grant a probationary sentence
to, such person with respect to the conviction
under section 922(g).
(2) As used in this subsection—
(A) the term “serious drug offense” means—
(i) an offense under the Controlled
Substances Act (21 U.S.C. 801 et seq.),
the Controlled Substances Import and
Export Act (21 U.S.C. 951 et seq.), or
chapter 705 of title 46 for which a
maximum term of imprisonment of ten
years or more is prescribed by law; or
(ii) an offense under State law,
involving manufacturing, distributing,
or
possessing
with
intent
to
manufacture or distribute, a controlled

21a
substance (as defined in section 102 of
the Controlled Substances Act (21
U.S.C. 802)), for which a maximum
term of imprisonment of ten years or
more is prescribed by law;
(B) the term “violent felony” means any
crime punishable by imprisonment for a
term exceeding one year, or any act of
juvenile delinquency involving the use or
carrying of a firearm, knife, or destructive
device that would be punishable by
imprisonment for such term if committed by
an adult, that—
(i) has as an element the use,
attempted use, or threatened use of
physical force against the person of
another; or
(ii) is burglary, arson, or extortion,
involves use of explosives, or otherwise
involves conduct that presents a serious
potential risk of physical injury to
another; and
(C) the term “conviction” includes a finding
that a person has committed an act of
juvenile delinquency involving a violent
felony.

